<html>
<title> - RISING VIOLENT CRIME IN THE AFTERMATH OF HURRICANE KATRINA</title>
<body><pre>[Senate Hearing 110-271]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-271
 
       RISING VIOLENT CRIME IN THE AFTERMATH OF HURRICANE KATRINA

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2007

                               __________

                          Serial No. J-110-44

                               __________

         Printed for the use of the Committee on the Judiciary




                     U.S. GOVERNMENT PRINTING OFFICE

40-461 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cardin, Hon. Benjamin L., a U.S. Senator from the State of 
  Maryland.......................................................     4
Cornyn, Hon. John, a U.S. Senator from the State of Texas, 
  prepared statement.............................................    44
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    46
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    50
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     3

                               WITNESSES

Bell, David L., Chief Judge, Orleans Parish Juvenile Court, New 
  Orleans, Louisiana.............................................    13
Cannatella, Anthony W., Deputy Superintendent, Operations Bureau, 
  New Orleans Police Department, New Orleans, Louisiana..........    15
Landrieu, Hon. Mary L., a U.S. Senator from the State of 
  Louisiana......................................................     5
Letten, James B., U.S. Attorney for the Eastern District of 
  Louisiana, New Orleans, Louisiana..............................    11
Stellingworth, Robert A., President and Chief Executive Officer, 
  New Orleans Police and Justice Foundation, New Orleans, 
  Louisiana......................................................    18
Vitter, Hon. David, a U.S. Senator from the State of Louisiana...     7

                         QUESTIONS AND ANSWERS

Responses of David L. Bell to questions submitted by Senator 
  Kennedy........................................................    29
Responses of James Letten to questions submitted by Senator 
  Kennedy........................................................    34

                       SUBMISSIONS FOR THE RECORD

Bell, David L., Chief Judge, Orleans Parish Juvenile Court, New 
  Orleans, Louisiana, statement..................................    37
Cannatella, Anthony W., Deputy Superintendent, Operations Bureau, 
  New Orleans Police Department, New Orleans, Louisiana, 
  statement......................................................    40
Landrieu, Hon. Mary L., a U.S. Senator from the State of 
  Louisiana, statement...........................................    47
Letten, James B., U.S. Attorney for the Eastern District of 
  Louisiana, New Orleans, Louisiana, statement...................    53
Stellingworth, Robert A., President and Chief Executive Officer, 
  New Orleans Police and Justice Foundation, New Orleans, 
  Louisiana, statement and attachments...........................    91


       RISING VIOLENT CRIME IN THE AFTERMATH OF HURRICANE KATRINA

                              ----------                              


                        WEDNESDAY, JUNE 20, 2007

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 10:49 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Cardin, and Specter.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. I should note to begin with 
that I really appreciate the witnesses who have flown up here. 
I always appreciate the senior Senator from Louisiana, Senator 
Landrieu, and, of course, Senator Vitter being here. But they 
were in town, and I should just note that one of the reasons 
this hearing was somewhat delayed this morning is that a lot of 
the witnesses who were coming in last night arrived today.
    As we know, when Hurricane Katrina struck New Orleans and 
the Gulf Coast nearly 2 years ago, no one knew the extent of 
the devastation or how long it would take to recover from this 
tragedy. One thing we do know is that the Federal Government's 
emergency response was inadequate, uncoordinated, and left far 
too many to suffer far too long after the storm. What we are 
now going to examine is not so much all the mistakes that were 
made in the response by the Department of Homeland Security and 
others, but we are going to examine the latest challenge to 
recovery from Katrina--the growing crisis of violent crime in 
the city of New Orleans.
    Violent crime in New Orleans has reached near-epidemic 
proportions. It has emerged as the most serious threat to its 
recovery since the storm. In the first 3 months of this year, 
violent crime is up more than 100 percent compared to the same 
time last year. New Orleans has lost nearly half its population 
since the storm, but the number of murders, armed robberies, 
and assaults are on track to match totals from before Katrina. 
In the last 10 days, there have been eight more murders, 
bringing the total this year alone to more than 90.
    The murder rate per capita is now the highest in America, 
more than 20 percent higher than in any other major city. At 
its current rate, New Orleans has 12 times as many homicides as 
New York City, 3 times as many as Philadelphia, and twice as 
many as Washington, D.C. The crisis is so severe that National 
Guardsmen and State police have been brought in to patrol the 
streets.
    The criminal justice system was battered by Katrina. We 
know that. It is now strained to the breaking point. The New 
Orleans Police Department has lost more than 500 active police 
officers since the storm, and that is roughly, I believe, 30 
percent of the force. The courts, the prosecutors, and police 
often work out of temporary facilities. Only 4 of 11 jail 
facilities in the city have been reopened, and, in some cases, 
temporary FEMA facilities are even used to house inmates.
    In its weakened condition, the criminal justice system has 
struggled to keep order and bring justice to offenders. Last 
year, there were more than 160 murders in the city, and so far 
only one murder case has led to a conviction. Let me emphasize 
that. One of these 160 murders has led to a conviction.
    And the problem is not unique to murder cases. In more than 
3,000 criminal cases last year, the charges had to be dismissed 
and suspects released, at least temporarily, where in many 
cases indictments could not be brought within 60 days, as 
required by Louisiana law. The overall conviction rate is among 
the lowest in the country.
    There can be no question that restoring order and security 
to the streets of New Orleans must be among our highest 
priorities in the rebuilding effort for Louisiana and the Gulf 
Region. Unfortunately, the response of the administration to 
this crisis has been too little, too late. And while the 
administration has written a blank check for the war in Iraq, a 
blank check for the police departments in Iraq and so on, it 
cannot seem to find the necessary support for those who need it 
in New Orleans and the Gulf Coast here at home. I would like to 
see the same amount of attention given to crises at home as 
crises in Baghdad.
    Two weeks ago, Attorney General Gonzales announced a new 
violent crime program in response to the second year of FBI 
statistics showing violent crime is increasing. A great 
announcement, nice press conference, beautiful pictures. They 
must have spent a fortune on getting the posters and all to go 
with it. But it included no money at all for new State or local 
police officers on our streets. The COPS program has been cut 
out to send money to the police departments in Baghdad. And, 
regrettably, Attorney General Gonzales failed to even mention 
the violent crime problem in New Orleans, even though it is one 
of the worst in this Nation.
    Over the last 6 years--the administration has abandoned any 
commitment to the COPS program even though in the 1990s it was 
the model for reducing violent crime to historical lows in this 
country. Again, we will send money to police forces in Iraq, 
Iraqi police departments, which tend to end up just killing 
each other, but we cut out the money for police departments in 
America.
    So far the largest response to rising violent crime in New 
Orleans has come at the insistence of Congress, not the 
administration. In particular, it has come from the leadership 
of Senator Mary Landrieu, one of the witnesses we will hear 
from. We welcome her and her colleague from Louisiana, Senator 
Vitter. In January of this year, Senator Landrieu announced a 
10-point plan to combat violent crime in the region. She laid 
out a road map to restore the criminal justice system in New 
Orleans and Louisiana by giving help directly to those who need 
it most. It is a clear road map for success in battling violent 
crime in cities such as New Orleans. Congress must continue to 
lead on this issue if the administration will not.
    Senator Landrieu, I want to thank you. You have helped to 
provide $50 million for law enforcement reconstruction in 
Louisiana as part of the supplemental bill just signed into law 
this month. So let us hope we can send the signal that we can 
fight violent crime in this country by working cooperatively 
with State and local law enforcement partners. Then we can 
bring back the vitality and pride of one of our Nation's 
greatest treasures--the city of New Orleans and the Gulf Coast 
region--and make it a secure and prosperous home for all its 
citizens.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Senator Specter?

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman. I thank you, 
Senator Leahy, for scheduling this hearing on this problem in 
New Orleans. The Federal Government has responded, not as 
promptly or as adequately as we should have, but I have had 
many conversations with Senator Landrieu about this subject in 
the Appropriations Subcommittee which I chaired last year, and 
also with Senator Vitter. We have been trying to be helpful. 
And I think to focus attention on the law enforcement problem 
is very, very important and very timely.
    It is always difficult to find additional resources, but 
the Federal Government really ought to step in, in an area like 
this to help out when there has been such a disastrous calamity 
in the area.
    I have been talking to United States Attorney Letten about 
what has happened, and I am pleased to hear--informally we 
talked about it before the hearing started--that there have 
been some supplemental prosecutors assigned from other areas. I 
think that is highly desirable, and I think more of that can be 
done. We have an enormous Justice Department, a lot of U.S. 
Attorneys in our cadre, and that can be done. I was in the 
prosecution line at one time and had a big office and loaned 
people. We had a big murder in Pennsylvania many years ago, 
Yablonski and his wife and daughter. It goes back to 1969, a 
small county in Pennsylvania, Washington County, and I loaned a 
group of prosecutors to go and help out. So there is a lot of 
precedent for doing that.
    I regret, Mr. Chairman, that I am unable to stay. We are 
very heavily engaged in immigration at the moment and trying to 
work through the final stages of an agreed list of amendments. 
But Senator Sessions has indicated his intention to come, so I 
hope we will be represented on this side of the aisle. But I 
will be following the testimony closely with staff and will 
cooperate in being as helpful as I can.
    Thank you.
    Chairman Leahy. Thank you very much, Senator Specter.
    Senator Specter and I first knew each other, incidentally, 
in Louisiana when we were both prosecutors. There are days when 
we think that was the better job of the two.
    Senator Cardin, did you want to say something before we 
start?
    Senator Specter. Were you at the DAs convention in New 
Orleans in 1971?
    Chairman Leahy. Actually, I was. That was the time when I 
got locked out of--
    Senator Specter. What was that?
    Chairman Leahy. We will talk about that after.
    [Laughter.]
    Senator Landrieu. And we need you both back.
    Senator Specter. I was just regaling U.S. Attorney Letten. 
Your DA was Jim--
    Mr. Letten. Jim Garrison.
    Chairman Leahy. Garrison.
    Senator Specter. I try to forget that name. I was one of 
the young lawyers on the Warren Commission staff, and DA Jim 
Garrison had a different view of the matter.
    Chairman Leahy. He locked us out of one of the buildings.
    Senator Specter. Without detailing that, he opened up the 
convention with a press conference lambasting the Warren 
Commission, and the Board of the National DAs Association 
criticized him for criticizing the Commission. And when the 
Saturday night banquet came, we came to this beautiful hotel--
    Chairman Leahy. It was locked.
    Senator Specter.--for the festive occasion and we were--
    Chairman Leahy. Locked out. As I say--
    Senator Landrieu. Please do not hold that against us.
    Chairman Leahy. It gets even worse. It gets even worse. At 
that meeting I got elected Treasury of the National District 
Attorneys Association, and they said, ``By the way, there is 
this very large advance we gave to the District Attorney's 
Office in New Orleans for that banquet. State's Attorney Leahy, 
would you please get that money back?'' We eventually wrote it 
off.
    Senator Specter. I was glad we were only locked out. He was 
locking up a lot of people.
    [Laughter.]
    Senator Specter. Promiscuously.
    Senator Landrieu. It could have been worse.
    Chairman Leahy. He was then succeeded by Harry Connick.
    Mr. Letten. Yes, sir, he was, in 1974.
    Chairman Leahy. And that is when I first--not that he would 
remember it. I met his son, who was just a little child. Go 
ahead. Sorry.

 STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Mr. Chairman, I am very much interested in 
the history here and your role in all of this. I thank you, 
though, for holding this hearing.
    Senator Landrieu and Senator Vitter had some of us down to 
New Orleans not too long ago where we could see firsthand the 
impact that the storms have had on the life of people in New 
Orleans and Louisiana, and I tell you, until you have been down 
there and you see firsthand the problems.
    I must tell you, I am pleased we are having this hearing, 
because as I read the back-up material for the hearing, I do 
not think most people realize the challenges that you have in 
law enforcement. Obviously, the effect of the storm presented 
additional challenges for law enforcement as far as 
neighborhoods and support systems. But when you realize also 
that your jails were destroyed in many instances, that the 
people that were responsible for law enforcement, not only the 
police officers but those in the prosecutors' offices and in 
the defense attorneys' offices were dislocated, it makes it a 
real challenge for how the judicial system can operate and how 
you can maintain the rule of law and law and order within the 
community.
    Obviously, the focus was more on displaced individuals and 
rebuilding the levees and all these other issues, but the 
challenges that you confront are certainly daunting, and I am 
glad that we are having this hearing to see how the Federal 
Government could be more helpful in restoring the type of 
system that is necessary for the people of New Orleans.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Senator Landrieu?

  STATEMENT OF HON. MARY L. LANDRIEU, A U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Landrieu. I thank you, Mr. Chairman, and members of 
the Committee and the Ranking Member for what you have done to 
date. And I thank you, Mr. Chairman, for focusing this hearing 
on what we need to continue to do as we look to the future. 
Thank you for inviting me and Senator Vitter to testify.
    The disturbing and crippling increase in criminal activity 
has overwhelmed the city of New Orleans and parts of the region 
since Katrina and Rita and the unprecedented catastrophic flood 
that ensued when the levees broke in and around the city. I 
would like to welcome our constituents U.S. Attorney Jim 
Letten, Judge David Bell, Police Commissioner Anthony 
Cannatella, and Bob Stellingworth, who has really stepped up as 
president of the New Orleans Police and Justice Foundation, for 
helping to organize a community-wide and broad effort to help 
with this situation.
    In 2006, over 160 murders occurred throughout the city of 
New Orleans, giving the city the ominous distinction of being 
the city with the most murders per capita in the United States. 
In fact, the 2006 homicide rate in New Orleans is 31 percent 
higher than any city with the next highest rate. It has been 
heart-breaking, every murder has been heart-breaking for the 
families, and it has spread fear in our community.
    But, Mr. Chairman, this past January the situation in New 
Orleans emerged as a kind of crisis that shook the very core 
and foundation of our community. On the morning of January 4th, 
a home intruder shot and killed Helen Hill, a local film maker, 
and severely wounded her husband, Paul. Paul was a physician 
who had come to the city to establish a medical clinic in the 
heart of the city to treat the city's poor and uninsured.
    When the police arrived at their home about 5:30 a.m., they 
found Paul kneeling by the front door, bleeding profusely from 
three gunshot wounds and clutching his 2-year-old son in his 
arms. Helen's body lay nearby, having been brutally shot in the 
neck. Her death was the sixth murder that occurred within a 
span of 24 hours.
    The next day our local newspaper, which has truly been a 
champion of our response and recovery, ran a headline that 
said, ``Killings Bring the City to Its Bloodied Knees.''
    This event served as a catalyst for organized and renewed 
community involvement, which for any community is always a 
challenge under normal circumstances to have law enforcement 
given the resources and coordination necessary to keep crime in 
some of our major cities at bay. But our situation, of course, 
as Senator Cardin has said, is much graver, and as you have 
indicated, Mr. Chairman, your knowledge of our situation.
    As this map shows here to my right, the surge in murders 
has occurred across the city, but it is located primarily in 
Uptown, which is the neighborhood that both Senator Vitter and 
I come from, and the mid-city and downtown area. The red points 
represent open murder cases; the blue points represent the 
solved murder cases. But the one green point represents the 
singular successful prosecution, and I know that our 
prosecutors here will give some more details to that.
    This year, as of June 18th, 91 murders have occurred. Given 
the repopulation of the city, if this expands, our murder rate 
will reach as high as 200 this year. In response to this crime, 
this Congress quickly recognized the need to appropriate 
additional money. Chairman Leahy, under your leadership, this 
Congress appropriated $50 million in the Emergency Supplemental 
bill for the whole Gulf Coast based on a formula of need--not 
politics but need--to direct these resources to the areas that 
need the most help.
    That is in large measure what this hearing is about, I 
hope, today--for our witnesses to talk about how best to use 
these resources to supplement what is being done on the ground 
at the local level. Among these objectives, these dollars will 
ensure the full implementation of the New Orleans Anti-Crime 
Plan, which is supported by Common Good, the Metropolitan Crime 
Commission, Citizens for One Greater New Orleans, the City 
Council. James Carter, City Councilman, has taken the lead at 
the local level, along with our Federal officials, of which I 
have great respect for Jim Letten.
    Most significantly, the Emergency Supplemental waives the 
Stafford Act requirement that localities match 10 percent of 
the cost of disaster recovery projects before the Federal 
Government pays the remaining 90 percent. This match has kept 
law enforcement and other public infrastructure tied in a 
morass of red tape for nearly 2 years.
    I would like to show the picture of our headquarters. In 
consultation with our local law enforcement officials, I 
offered a 10-point plan. This is part of the plan, to waive 
that match. This is what our police department is operating in 
18 months after a flood. The highest crime rate in the United 
States and it took us 18 months to get the 10-percent waiver 
matched and 18 months to get the Federal Government to agree 
that it was impossible for the city of New Orleans to repay its 
loans within 3 years.
    One of the reasons we could not step up the construction is 
because the Federal law required any money we borrowed would 
have to be paid back in 3 years. We are lucky just to be able 
to have these trailers attached to the ground. God help us if 
another hurricane comes.
    Because NOPD still lacks central evidence storage, which 
was in large measure destroyed by the storm, we are putting our 
evidence in the back of an 18-wheel trailer. An 18-wheeler. I 
guess if a storm comes, we have to roll our evidence room to 
higher ground, and then when the water goes down, come back and 
continue to conduct trials.
    We asked for a COPS grant. We were basically turned down 
because the COPS program is being dismembered. I hope that this 
Committee can help understand how important helping our police 
department is. That is what this hearing is about as well.
    I want to thank the Justice Department for what they have 
done with the meager resources prior to this $50 million that 
we gave them, because they did send, at my request and Senator 
Vitter's request, some additional DEA agents and FBI agents, 
and I cannot tell you how grateful our community is for that 
help. And I know that my time has expired, but let me just 
conclude by saying I thank you for holding this hearing. While 
our challenges remain large, the people of our city and region 
are fighting for their home, for the safety of our home. We 
plan to return, we are returning, and we need your continued 
help as we make the reforms and improvements necessary.
    Thank you.
    [The prepared statement of Senator Landrieu appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Senator Vitter, thank you for being here. And, Senator 
Landrieu, I will make the same offer to both you and Senator 
Vitter. If you care to join the panel up here, feel free.

 STATEMENT OF HON. DAVID VITTER, A U.S. SENATOR FROM THE STATE 
                          OF LOUISIANA

    Senator Vitter. Thank you very much, Mr. Chairman and 
members of the Committee, for this hearing. It is very 
important. I want to simply make four simple but I think 
crucial points.
    Number 1, to state and restate the obvious, violent crime 
is an extremely serious problem in Louisiana, particularly New 
Orleans, and is a leading obstacle and impediment to recovery 
after Hurricane Katrina.
    Number 2, I want to stop and pause and thank Congress, your 
leadership, others in Congress, and the administration for very 
significant Federal help to attack this problem. It has really 
been unprecedented with regard to Federal help to address what 
is generally ordinarily considered a local law enforcement 
prosecution problem. So thank you.
    Number 3, I certainly want to urge all of us in Congress 
and the administration to continue and even expand that Federal 
help.
    And, number 4, to me this is the singularly most important 
point. What is just as important, I would say more important 
than simply continuing that Federal help, we must leverage that 
Federal help and demand as a condition of that continuing 
Federal help that needed reforms on the ground in the community 
continue to happen and are followed through to completion, 
specifically within the New Orleans District Attorney's Office 
and the New Orleans Police Department.
    Let me go into each of these four points briefly.
    First of all, violent crime, as we all know is an enormous 
problem and an enormous obstacle to recovery. Again, it is up a 
total of 107 percent in 2007 compared to the same period in 
2006. As was recently reported locally, we have an annual rate 
of 75 murders per 1,000 residents. Before Katrina, that rate 
was 56 murders per 1,000 residents. So basically we have half 
the people and virtually the same number of murders. It is 
completely unacceptable, and, of course, previous speakers have 
added to those statistics.
    Point number 2, thank you for very, very significant 
Federal help. Our Federal representatives in terms of the lead 
agencies on the ground are superb. You will hear from Jim 
Letten, our U.S. Attorney. He has stepped up and his office has 
stepped up in an exemplary way helping with what are ordinarily 
State court prosecutions; Jim Bernazzani, head of the FBI 
office there, a great leader who has stepped up and become 
extremely involved also; $55 million in the June 2006 
supplemental bill for crime fighting in the Katrina region; of 
course, a lot of that came to New Orleans; $24 million in the 
recent 2007 supplemental bill, again for crime fighting in our 
area; funding of innovative programs like work with the locals 
to protect victims and witnesses of crime. Witness protection 
was a huge need. The Feds have helped develop those programs 
locally. Justice, FBI, others have sent additional agents down. 
Mary mentioned DEA. That has been very significant. Violent 
gangs, Safe Streets Task Force, DOJ has started that. That has 
been significant. Helping to put together a violent offenders 
unit in the DA's office, very important. So really 
unprecedented help and thank you.
    Point number 3 is, unfortunately, because of the situation 
on the ground, that absolutely needs to continue and even be 
ramped up, if at al possible. And I urge all of us within 
Congress and within the administration to continue this focus 
and this extraordinary help given extraordinary circumstances 
from the Federal level.
    I know you all are committed to that, and I thank you for 
that. And that was recently displayed in the very recent 
supplemental bill, but I really urge that focus and that help 
to continue. And we have additional ideas for that. A community 
prosecutors unit we have requested funding for. Placing 
assistant district attorneys in each of the New Orleans Police 
Department's eight district offices, very important. So please 
help fund these items.
    But fourth, and finally--and I will end with this, and I 
really do think it is the most important point. This problem 
ultimately will not be solved because of Federal resources 
alone or because of Federal personnel. At its core this problem 
is a local crime problem, which at its core is only going to be 
solved by proper action and discipline and organization on the 
ground, particularly within the New Orleans Police Department 
and the New Orleans District Attorney's Office. So because of 
that, I believe the single most important thing any of us can 
do at the Federal level is use the Federal help to leverage and 
to demand the necessary reforms and changes on the ground, 
particularly in the New Orleans DA's Office and the New Orleans 
Police Department.
    At its core all of these problems pre-existed Katrina. Now, 
Katrina made them worse, made them a lot worse, put additional 
strains and stresses on the situation because of the 
destruction of buildings and infrastructure and all sorts of 
things. But that is not what is going on in terms of the 
fundamental problem. Fundamentally, these problems pre-existed 
Katrina and go to certain organizational and in some cases 
political issues on the ground. And I urge all of us at the 
Federal level to use the Federal help to leverage, to demand, 
to enforce the changes, some of which have begun or are 
ongoing, but none of which have been ramped up to completion to 
demand those reforms and changes that need to happen, 
particularly in the New Orleans DA's Office and the New Orleans 
Police Department.
    Thank you very much.
    Chairman Leahy. I find it interesting that, of course, 
people in New Orleans have to do much, but when you have things 
like cutting out all the COPS money--and that was a Federal 
program that worked very, very well, I believe. Crime came down 
during that time. And I realize in this administration, at the 
risk of being partisan, they seem to feel that if anything came 
from the previous administration, it must be wrong, so they 
just cut the money out--part of the reason being that we need 
money, the administration says, for Iraq. But wouldn't you 
think that a program like that would be helpful? I have talked 
to mayors, Republican mayors and Democratic mayors, from all 
over the country, and they say the COPS program has been one of 
the most helpful things they have had in bringing down crime. 
And that is a Federal--
    Senator Vitter. Yes, Mr. Chairman, I have supported the 
COPS program very consistently, so I would support that. But, 
again, just to restate my last point, because in my mind it is 
the most important, that alone, that sort of Federal help 
alone, in my opinion, will not have us turn the corner in terms 
of violent crime in New Orleans. We need to use that help, in 
my opinion, to leverage it to demand the necessary reforms and 
changes locally. And without that happening, I believe the 
problem will not be solved. But we have an enormous tool in 
terms of this Federal help if we can leverage that, use it to 
demand those necessary changes.
    Chairman Leahy. Thank you.
    Senator Cardin?
    Senator Cardin. Just very briefly, it takes a really 
special person who wants to devote his or her life to law 
enforcement or the DA's office. It is a sacrifice just to do 
that. And then to work in a city that has unusual challenges, 
as New Orleans had before the storms--and it certainly has been 
made a lot worse after the storms--and then to show up every 
day and work in a trailer or to try to get your evidence out of 
a tractor-trailer to me is just unbelievable. And we expect 
people to do this.
    You have got to start somewhere, and I do think that you 
are in crisis, and it requires some signals, including from the 
Federal Government, to allow law enforcement to have the type 
of facilities that they should have, to have the type of 
trained personnel that they need, and, yes, we do need the 
cooperation at all levels of government here. But I do not 
think this is acceptable to have to work under these 
conditions. It makes it so much more difficult for people to 
show up every day and to be positive about their jobs.
    Senator Landrieu. And let me just add, if I could, that I 
hope that we do not use the need for reform, which is obvious 
not only in the city and the region but in other places around 
the country, as an excuse not to provide the resources that we 
need to get the job done. This is an unprecedented challenge. 
It is going to take unprecedented resources, and it is going to 
take the focus of the Federal Government to help at the local 
level to get the job done.
    Thank you.
    Senator Cardin. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much.
    If the witnesses for the panel could come forward, we will 
get your name tags. We may have a roll call vote here. If we 
do, I will leave and vote but then come right back. Before you 
get too settled in, gentlemen, I am going to swear you in, 
which is our custom. Don't get too comfortable, Mr. Cannatella. 
Sorry.
    Please raise your right hand. Do you solemnly swear that 
the testimony you will give in this matter will be the truth, 
the whole truth, and nothing but the truth, so help you God?
    Mr. Letten. I do.
    Judge Bell. I do.
    Mr. Cannatella. I do.
    Mr. Stellingworth. I do.
    Chairman Leahy. Thank you.
    First off, let me thank you again for persisting. There is 
probably nothing more frustrating, nor more understandable, 
than flight delays because of weather. Every one of us who--
except for those Senators who can drive home in the evening, 
Senator Cardin.
    [Laughter.]
    Chairman Leahy. But those of us who have to fly back and 
forth to our homes on the weekend know what that is like.
    James Letten has served as United States Attorney for the 
Eastern District of Louisiana since April 2001. He has been a 
Federal prosecutor for more than 25 years. He has served in a 
number of positions within the U.S. Attorney's Office, 
including chief of the Organized Crime Task Force and First 
Assistant prior to being named U.S. Attorney. He was the lead 
prosecutor in the investigation and successful conviction of 
former Louisiana Governor Edwin Edwards in 2000. He was 
recently awarded the 2005 United States Attorney General's 
Medallion for Distinguished Service to recognize his leadership 
following Hurricane Katrina. He is a native of New Orleans, 
received his J.D. from Tulane Law School in 1979.
    Mr. Letten, as both Senator Specter and I have said, you 
have got the better job.
    The time should not come out of my introduction of him.
    Go ahead.

  STATEMENT OF JAMES B. LETTEN, U.S. ATTORNEY FOR THE EASTERN 
         DISTRICT OF LOUISIANA, NEW ORLEANS, LOUISIANA

    Mr. Letten. Thank you very much, and good morning, Mr. 
Chairman and members of the Senate Judiciary Committee. I am 
Jim Letten, United States Attorney for the Eastern District of 
Louisiana, and it is a distinct honor to appear here before you 
representing the outstanding men and women of our U.S. 
Attorney's Office and Federal law enforcement.
    I am particularly honored and pleased on both a personal 
and professional note to be providing testimony here today in 
the presence of and along with and to my home-State Senators--
Senator Mary Landrieu and Senator David Vitter--and I want to 
thank you for the support you all have provided us, and it is 
outstanding. Thank you very much.
    I am also privileged to be here on this panel with three 
men with whom I have had the honor of working very closely on 
groundbreaking initiatives against violent crime in New Orleans 
for some time. I might add that serving as U.S. Attorney in 
this great district is a unique personal honor for me, a New 
Orleanian born and raised with roots on both sides of my family 
running many generations deep. In fact, our family's law 
enforcement commitment to this area includes my great-
grandfather, who in the summer of 1898 gave his life in the 
line of duty as a New Orleans police officer while apprehending 
a wanted violent criminal just about four blocks from the 
office which I now occupy. Sadly, some things do not change.
    It is worth noting that prior to Hurricane Katrina, the 
city of New Orleans grappled with one of the highest per capita 
homicide rates in the U.S. In fact, just a few short months 
before the hurricane, at the mayor's Crime Summit Breakfast, I 
warned that the viability and even survival of our city--and I 
think it still holds--will depend on the ability to control and 
reduce violent crime; to deter public corruption--which has 
gutted our economy and contributed to an enormous population, 
business, and talent drain; and to provide a viable, lasting, 
and top-notch educational system, especially for the poor, and 
also to diversify our deteriorating economy.
    As this city repopulated post-Katrina, particularly 
beginning in the spring of 2006, our office, coupled with our 
Federal enforcement partners, and NOPD have aggressively 
pursued the administration's and the Department's violent crime 
reduction goals under Project Safe Neighborhoods. Indeed, it is 
this very population return, including individuals with a hard-
core criminal element, under severely adverse conditions that 
resulted in 161 homicides in New Orleans alone for 2006, with a 
population of only about 200,000.
    Now, as of today, there have already been, I believe--and I 
could be corrected by Chief Cannatella--90 homicides in Orleans 
Parish this year--91. I am sorry. In attempting to help address 
the violent crime problem, we in the Federal system place 
particular emphasis on attacking drug-and firearm-related 
crime. During the last two decades, the drug trade--and this is 
important--in New Orleans has largely been limited to low-level 
street trade, primarily engaged in by young men from poor 
areas, who either alone or in very loosely knit, non-structured 
groups or gangs sell drugs and violently engage one another and 
settle disputes with firearms. In fact, New Orleans does not 
suffer a traditional structured gang problem. In truth, 
however, the loosely knit criminal element in New Orleans is 
far more difficult to identify, penetrate, infiltrate, and 
control than structured organized gangs would be.
    A population of perhaps 20,000 to 60,000 migrant workers 
also tends to put a certain amount of stress on the State, 
local, and Federal enforcement in the region. And, importantly, 
the vast majority of the homicides we have talked about and 
other violent offenses must be handled by the local criminal 
justice system as they simply do not fall within Federal 
jurisdiction.
    But we on the Federal side, nevertheless, see opportunities 
to act boldly where our Federal resources can be brought to 
bear, and we have and we will continue to do that.
    We have made positive strides on the Federal level 
investigating, arresting, indicting, prosecuting, and 
imprisoning many of these individuals. But our crime problem 
here is a result of a very complex landscape, including such 
factors as: thousands of returning poor individuals with 
inadequate, unsafe housing, employment opportunities, and a 
huge drug culture; often inadequate schools, after-school 
athletic and other opportunities, feeding juvenile crime 
problems post-Katrina; an unknown number of unaccompanied 
minors and returning drug dealers and violent criminals--and I 
believe this is a critical point--who have chosen to return to 
New Orleans to exploit dysfunction in the local justice system, 
including a now notorious revolving door which has likely 
attracted an inordinately high number of offenders in relation 
to the relatively small population of the city who, if arrested 
on local charges, often anticipate being released from prison 
or their bond obligations within 60 days if formal charges are 
not filed against them in that period.
    Some 3,000 of these Rule 701 releases occurred in 2006 
alone. Disturbingly, according to recent reports, over 2,100 of 
these releases have occurred since January 1, 2007, despite 
local commitments to fundamental but critical enforcement and 
charging policies, which, if successfully implemented, should 
seriously ameliorate these problems.
    Further, despite a committed reform-minded police 
superintendent and staff who I admire a great deal, NOPD still 
suffers many challenges, including hemorrhaging of experienced, 
competent officers to other agencies in cities, a phenomenon 
which is now plaguing neighboring Jefferson Parish; continued 
shortage of adequate jail space for arrested offenders, 
including for juveniles; the need not only for permanent 
headquarters and administrative facilities, so eloquently 
addressed by our home Senators, but also integrated case-
tracking technology; and a critical paucity of mental health 
and drug treatment facilities, providers, and services in both 
New Orleans and surrounding parishes.
    In calendar year 2006, our U.S. Attorney's Office produced 
32 more indictments in drug and violent crime cases than in 
2005, despite the fact that we had only half the population of 
pre-Katrina New Orleans.
    In 2006, our charges against serious immigration felons 
tripled over 2005. In total, between January 1 of 2006 and June 
13, 2007, our office has indicted 356 individuals on violent 
crimes and firearms-related felonies, with an additional 708 
individuals on serious drug-related felonies as well.
    Chairman Leahy. Mr. Letten, we are going to put your full 
statement in the record. The vote has started. I am going to 
have Judge Bell speak now. We will have time to get his 
testimony before Senator Landrieu and I have to leave for the 
vote. And then we will come right back, and I have a number of 
questions based on your testimony, which I think is superb.
    Mr. Letten. Yes, sir. Thank you, sir.
    [The prepared statement of Mr. Letten appears as a 
submission for the record.]
    Chairman Leahy. David Bell is the Chief Judge of Orleans 
Parish Juvenile Court; J.D. in 1995 from Southern University 
Law Center on the President's scholarship, established David L. 
Bell Associates, attorney focused on legislative advocacy, 
family law, and criminal law; elected juvenile court judge in 
2004, became chief judge in 2005--a meteoric rise. With the 
support of his colleagues on the bench, the New Orleans City 
Council, and stakeholders across the system, he is leading the 
juvenile justice reform efforts in New Orleans.
    Judge Bell, thank you very much for being here.

    STATEMENT OF DAVID L. BELL, CHIEF JUDGE, ORLEANS PARISH 
             JUVENILE COURT, NEW ORLEANS, LOUISIANA

    Judge Bell. Yes, sir, I will begin by saying thank you for 
having me as well. I will be brief.
    In a nutshell, we need Federal funding. We greatly 
appreciate the $50 million that you all gave us. But for that 
$50 million, we probably would not be here today to talk about 
violent crime. But we need dollars with flexibility. Those 
dollars were given for the sole purpose of restoring us to the 
position that we were in pre-Katrina, and post-Katrina we have 
different problems, we have different issues, and we need 
different solutions. We need flexibility with that funding.
    Broken windows is not going to work in our community. 
Eighty percent of our windows are broken. You know, zero 
tolerance is not going to work in our community because there 
is not faith, there is not belief in our justice system. So you 
cannot go into a community and arrest someone, have them 
released, and then say, ``Now tell me who committed that 
murder,'' because there is now a distrust of you.
    We need a new approach. We need the ability to allow our 
U.S. Attorney, our district attorney, our judicial system, our 
police system to work together to create solutions--solutions 
to our current problems, not solutions to our pre-Katrina 
problems. But we cannot do it without your money, and that is 
just an honest statement. We do not have the tax base that we 
had pre-Katrina. We do not have the economic viability that we 
had pre-Katrina. Twelve percent of juvenile arrests are for 
possession of a firearm. Nationally, it is about 3 to 4 
percent. They are going to go from my system to Jim's system if 
we do not do something about it.
    Twenty-eight percent of our arrests are for possession of 
drugs and drug use charges. A lot of that is self-medication of 
juveniles due to post-traumatic stress syndrome, and there are 
no mental health facilities there. We cannot fund that $50 
million because that is something that did not exist pre-
Katrina.
    We had a great Weapons and Violent Elimination Court pre-
Katrina that was funded federally. We could not apply for 
funding for that with this $50 million grant because we were 
already receiving Federal funding, and the Federal funding for 
it ran out. And now our weapons charges are up probably the 
highest in the Nation.
    We have a YAP program, a Youth Advocate Program, that has a 
91-percent success rate that expires at the end of June that we 
do not have funding for. A 91-percent success rate, but this 
grant could not fund it and cannot continue to fund it because 
it is a program that we did not have pre-Katrina.
    We have a Report Resource Program that is intensive in 
community treatment that has a 57-percent success rate for 689 
kids that are enrolled in the program. We could not get funding 
for it because it did not exist pre-Katrina. We have one person 
full-time working that program, two people part-time working 
that program, and we have a 57-percent success rate. It is an 
excellent program, and we should have the flexibility to sit 
down with our police, with our DA, with our U.S. Attorney and--
    Chairman Leahy. Basically what you are saying, Judge Bell--
and I apologize I have cut you off before your time is up, only 
because what you cannot see behind you is some lights going on 
that indicate I have got about 5 minutes to get to the floor. 
Basically what you are saying is not only do you need the 
Federal funds, you need some flexibility. You are not 
Burlington, Vermont. You are not cities across the country that 
have not been devastated by one of the worst natural disasters 
in history. You need the money, but you need flexibility in how 
you use it.
    Judge Bell. Yes, sir.
    [The prepared statement of Judge Bell appears as a 
submission for the record.]
    Chairman Leahy. We will be right back. We will stand in 
recess.
    [Recess 11:32 a.m. to 12:03 p.m.]
    Chairman Leahy. If we could reconvene, Judge Bell, I cut 
you off there because of the vote. Did you want to add anything 
further? You have gone through--I was going to say ``hell and 
high water,'' but I guess wind and everything else to be here.
    Judge Bell. No, sir. I think you got the gist.
    Chairman Leahy. Thank you.
    I hope you understand, you and Mr. Letten and the others, 
those of us who have even looked at--whether we have been in 
law enforcement or education or anything else, just cannot get 
around the staggering numbers of what you have to do.
    Deputy Superintendent Anthony Cannatella is a third-
generation police officer, and correct me, Superintendent, if I 
am wrong, on the New Orleans police force for over 40 years. He 
was on duty and commanding the police response during and after 
Hurricane Katrina, commands the Operations Bureau where he is 
responsible for supervising more than 1,000 of the police 
force's 1,200 officers, including the SWAT, Tactical, and 
Mounted K-9 units, the Traffic Division,
    and all the city's eight police districts.
    Superintendent Cannatella, please go ahead, sir.

  STATEMENT OF ANTHONY W. CANNATELLA, DEPUTY SUPERINTENDENT, 
OPERATIONS BUREAU, NEW ORLEANS POLICE DEPARTMENT, NEW ORLEANS, 
                           LOUISIANA

    Mr. Cannatella. Thank you. I appreciate being here today. I 
would like to thank you and Senator Landrieu and Senator Vitter 
for having us here on behalf of Superintendent Riley, who could 
not be here today.
    Mr. Letten spoke to the causes of crime, and I think 
everybody is well aware of the causes of crime in New Orleans, 
so I will skip through that, and we will get into the problems 
that the New Orleans Police Department is faced with.
    At the present time, we lost so far 217 officers in 2005 
since Katrina--that is post-Katrina--and 216 in 2006. As of 
June 18 of this year, we have already lost 72 officers. We just 
graduated a Police Academy class of 44 officers that are in 
their beginning stages of field training. We have an academy 
class currently with 45 recruits, and we have a second class we 
are trying to put together that should have 50 recruits. Our 
2005 high employee was 1,741 officers. We are down at this time 
505 police officers until those two recruit classes graduate.
    Given the losses that we suffer continually, when those 
classes graduate, we will still be down 541 police officers. At 
the current time, we are patrolling the city of New Orleans 
with approximately 1,200 officers, and we are losing 30 percent 
of our force a year. And the reasons range from working 
conditions, loss of buildings, infrastructure in the 
department, living conditions. Eight hundred police officers of 
the New Orleans Police Department lost everything they owned in 
Hurricane Katrina. Those officers' families are spread out--
most of them still are spread out all over the United States. 
Due to some tremendous efforts of the New Orleans Police and 
Justice Foundation to secure low-interest loans, several of our 
officers have been able to purchase homes and move back in. But 
at this time, we still probably have 500 police officers that 
are not living in homes. They are living in FEMA trailers. And 
they are living spread out. We had to drop our domicile 
requirement and allow our police officers to live anywhere they 
could find a house. We have officers that actually live in 
Mississippi that are traveling daily from Gulfport, areas right 
outside of Gulfport and Diamondhead, Mississippi.
    Chairman Leahy. How far is that?
    Mr. Cannatella. Ninety miles, a hundred miles. Twice a day.
    Chairman Leahy. And then put in their regular shift once 
they get there.
    Mr. Cannatella. Yes, sir. And excuse me if I skip around, 
because to me reading just does not always say it. I am an old 
street cop.
    Chairman Leahy. You are saying it pretty well.
    Mr. Cannatella. Thank you. I am an old street cop, and I 
would rather just get to the heart of the subject.
    Besides that, we lost over 300 of our police cars in 
Katrina that were flooded. FEMA has replaced approximately 200 
of those police cars. With the city's finances being what they 
are and not back up to strength, we have not replaced the fleet 
that we were able to save in Katrina. So the average age of our 
police vehicles is 7 and 8 years old. We are driving police 
cars, Senator, that have over 175,000, 200,000 miles.
    All of this coupled together, you know, people keep asking 
me, ``What is the one thing we could do, Chief, to get your 
department back up and running?'' And there is no one thing. It 
is a lot of things. It is getting our officers back in standard 
housing. It is raising pay to competitive levels, because every 
police department for 500 miles around the city of New Orleans 
is in our pond fishing. The hurricane had not left the city 
yet, and we had several police departments from the surrounding 
States that were recruiting our officers away from us.
    The officers' families are spread out all over the United 
States. They have to take vacation days to visit their 
families, you know, once a month, if they are lucky. And when 
they go to these other cities and find out that their wives, or 
in some cases husbands, have better jobs in those communities, 
better schools, housing, and the police chief there is holding 
out the cash, the of course, is saying, you know, ``I think I 
need to stay here with my wife,'' or like I said, some 
husbands. And we are losing them that way. We have no way to 
retain our police officers, and as you know, that 10-year 
period of a police officer's career, that is the make-or-break 
point. To us, your veteran officers, 10 years, and those are 
the ones we are losing and we are not getting them back.
    I really think that--and the buildings, we are still 
working to this day--New Orleans police headquarters just 
started being repaired. Twenty-two months after Katrina, we are 
still working--all the bureau chiefs and the superintendent are 
working out of FEMA trailers. Our special operations, tactical, 
SWAT, traffic is working out of FEMA trailers. We have three 
police stations working out of FEMA trailers. That is actually 
police districts. Our crime lab just got up to 50-percent 
strength by renting some lab space from the University of New 
Orleans.
    To me--and I think Judge Bell will champion this--one of 
the telling problems we have, the New Orleans Police Department 
Juvenile Division was housed in police headquarters, and it had 
cells for juvenile arrests. Now juvenile prisoners that we 
arrest are actually booked in a FEMA trailer and released to 
their parents. Recently, we had a 14-year-old female juvenile 
that committed an armed robbery with a gun. We had to assign 
two female police officers to guard her over the weekend until 
she could be brought in on Monday for a detention hearing. At 
that point she had to be released back to her parents. This is 
an armed robber that stuck a gun in a tourist's face and robbed 
him. We have no place to book juveniles, and Judge Bell has 
probably 19 beds to assign the violent juveniles. So there 
comes a point where the judges have to decide who is the worst 
of the worst, and those are the 19 males that we keep. And 
unless I am wrong, we still do not have a bed--we called it a 
``bed"--a slot to put a female prisoner.
    Chairman Leahy. I understand. I spent 8 years in law 
enforcement before I was in the Senate, and I have gone through 
your whole testimony, all of which will be part of the record. 
But there must be some days you do not even want to get out of 
bed when you consider all the problems.
    Mr. Cannatella. Quite a few days. There are quite a few 
days I do not want to get out of bed, to be honest with you.
    I will be honest with you, Senator. If you were in law 
enforcement, you understand that the hardest thing a commanding 
officer has to do is look at a young officer that is dead tired 
on his feet or her feet, worked long hours, been in court, and 
as they walk out of the police station, the person they just 
put in jail for armed robbery is already walking out ahead of 
them, getting in the back of a taxicab going home with their 
mother. And it is frustrating, and to drive 80 to 100 miles a 
day to and from work is ludicrous in this country. Again, I do 
not think we could put our finger on any one thing.
    Heroes? You know, my wife asks me every day, ``Why do you 
still do this after 40 years? What, are you crazy?'' Yeah, I am 
crazy. But you get to go to work every day with a group of 
heroes that, to me--and I have got to be totally frank with 
this entire country. I do not think the New Orleans Police 
Department, the New Orleans Fire Department, and the New 
Orleans Paramedic Corps has ever been given what they are due 
for what they did for this country, because New Orleans is not 
just a city, it is part of this country. And those three 
agencies saved that city for this country. And I am telling 
you, it was--and please do not take this wrong, but, you know, 
it is the first chance I have had to say this on a national 
level, and I have got to say it. There were no elected 
officials, there were no other government agencies, there were 
no civil service employees that were doing what the police, 
fire, and EMS in the city were doing.
    You know, people say the sad state of the young people in 
this country. Well, I stand to differ. The young police, 
firemen, and paramedics that I saw, I feel like this country is 
going to be in good hands, because I saw heroes, kids, 20-year-
old officers. We had a female officer, Senator, that was out of 
the Police Academy 2 weeks. She spent three nights on the roof 
of her house in Lakeview because it was flooded. When she was 
rescued, she helped save other people. She finally found a way 
to call me at my district station and said, ``What do you want 
me to do?'' I said, ``Go up in the country where your family 
is, take a few days off, and call me.'' Two hours later, that 
young lady was standing at my side saying, ``I am a police 
officer. What do you want me to do?'' And she has not missed a 
day's work since. And she is not the only one.
    Chairman Leahy. You know, you said that that story has not 
been told. You just told it. And I hope a lot of people heard 
it.
    Mr. Cannatella. I apologize for the emotion.
    Chairman Leahy. As I have said, I have talked with Senator 
Landrieu many times about this, our staff who has gone down and 
everybody else, and if something like this hit my little State, 
I do not know how we would ever keep the vital services going. 
And law enforcement, the courts, those things are vital 
services. So I commend you for it.
    Mr. Cannatella. Thank you.
    Chairman Leahy. Please, when you go back, tell the men and 
women you command that I am proud of them.
    Mr. Cannatella. Thank you. They will be glad to hear that. 
They really will.
    Again, you know, we keep hearing about reform, reform, 
reform. Well, let me tell you, the New Orleans Police 
Department is as reformed as we could make it. We have 
implemented several reforms that we think are going to correct 
some of the problems that every major police department in this 
country has suffered. We had problems before. We certainly have 
problems since Katrina. And we have reformed our police 
department. Now it is time to give them what they do, and, you 
know, we stand ready to take the challenge and fix the crime 
problem. But it is going to take money. I hate to say that 
because I hate to be a beggar, but that is just what it is. 
Until we fix our police stations and our police vehicles and 
our fire trucks, I do not see it.
    Thank you.
    [The prepared statement of Mr. Cannatella appears as a 
submission for the record.]
    Chairman Leahy. Thank you.
    Robert Stellingworth is the President and CEO of the New 
Orleans Police and Justice Foundation. Prior to that, he was 
the Executive Director for the New Orleans Police Foundation. 
Prior to that, he spent 25 years as a special agent for the 
Bureau of Alcohol, Tobacco, and Firearms, special agent in 
charge for the New Orleans Division from 1994 to 1997, holds a 
degree in criminal justice from Michigan State University.
    Mr. Stellingworth, you have been very patient. Go ahead, 
sir.

   STATEMENT OF ROBERT A. STELLINGWORTH, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, NEW ORLEANS POLICE AND JUSTICE FOUNDATION, 
                     NEW ORLEANS, LOUISIANA

    Mr. Stellingworth. Thank you. Senator, I wish to thank the 
Committee and Senator Landrieu and Senator Vitter for this 
opportunity to present a community perspective regards the 
justice system and violent crime in New Orleans.
    The New Orleans Police and Justice Foundation is a 
nonprofit 501(c) 3 founded in the mid-1990s. Our mission is to 
improve the criminal justice system in Orleans Parish through 
partnerships with a special focus on the New Orleans Police 
Department. Today we are also representing the views of the 
NOLA Anti-Crime Coalition, a diverse consortium of over 15 
community-based organizations whose fundamental goal is to make 
New Orleans a safer place to live, work and visit.
    The foundation was born out of community outrage in the 
mid-1990's over police corruption and violent crime. Prior to 
2005, almost all our efforts were focused on providing business 
practice and philanthropic assistance to the New Orleans Police 
Department. Although this approach had some level of success, 
we came to recognize the justice system was just that--a system 
in need of reform. From the $30,000 annual salaries for new 
prosecuting attorneys to the severe underfunding of the 
criminal and municipal court systems to the high level of 
incarceration needed by the parish sheriff to sustain 
operations, the system was at best a fragile Band-aid on a 
major community injury that was slowly bleeding the city to 
death. With consistent annual police arrest rates of well over 
100,000 in a city with a population of less than 500,000, it 
was becoming obvious efforts to simply arrest our way out of 
the crime problem were not working. Finger pointing was popular 
with judges blaming the DA, the DA blaming the police, and the 
police expressing concern over the revolving door created by 
the DA and judges. A large portion of the community was 
disengaged, accepted the elevated levels of violence and 
considered the antics of system business as usual. Other 
segments of the community had grown to mistrust the police.
    Hurricane Katrina washed all pretenses away and revealed 
the underfunded system and fragile financing structure for what 
they were. The storm also revealed the social ills that helped 
drive the crime problem, social ills that will not be fixed 
instantly and are shared with many other cities across America. 
With the return of violent crime, a reenergized community 
identified justice system inefficiency as an issue that needed 
to be addressed.
    Analysis conducted by the foundation has identified a wide 
variety of systemic issues that feed these insidious 
inefficiencies. A list so long it seems almost overwhelming. We 
divide the issues into three separate areas: infrastructure, 
human capital, and operational business practices. I would like 
to take brief time to address each.
    Infrastructure has been well documented by the testimony of 
the other witnesses. It is the nuts and bolts of the system. In 
spite of some success, we have simply failed to restore the 
infrastructure needed by the justice system. NOPD remains in 
FEMA trailers, as you saw. The superintendent is dealing with a 
third projected move-in date to their previous headquarters. 
Police districts operate from temporary space and in disrepair. 
The DA is in a third temporary location with no hard date for 
reoccupancy of his pre-Katrina building. Cramped space, I might 
add. Baseline funding for the indigent defender program has all 
but disappeared due to reliance on traffic fines which are not 
generating revenue at pre-storm levels. The sheriff has been 
forced to house offenders in tents; pre-release and witness 
protection programs go unfunded.
    Human capital keeps the system alive. Staffing is down 
across the board due to mandated budget cuts in budgets that 
were well below an acceptable level before the storm. The NOPD 
has lost about 500 police officers from a cadre of 1,700-plus. 
Recruiting has been at best difficult; attrition remains a 
problem. The foundation documented over 80 percent of the 
officers had significant damage to their homes to the point 
where they could not return to them. Some still remain in 
temporary living accommodations, as Chief Cannatella has so 
eloquently put it.
    There are success stories. The DA starting salaries are now 
in the $50,000 range, and Federal grants have helped to 
establish a violent crime prosecution unit staffed with highly 
qualified attorneys in the $80,000 range. Over 500 first 
responders have refurbished or purchased new homes using 
private sector home loan subsidies averaging $5,000 provided by 
the foundation. Police salaries have also been increased; 
residency rules have been relaxed.
    In spite of these gains, serious shortfalls and inequities 
in staffing levels remain. Critical interim hurricane grants 
and funding that support human capital resources will soon 
expire with serious concern about the availability of 
alternative funding.
    Operational business practices before Katrina were under 
serious scrutiny, and it is now generally acknowledged the 
system was broken prior to Katrina. Basic police/DA 
communication processes were flawed; state-of-the-art 
technologies and integrated systems were not available.
    Post-Katrina, manual processes remain, but with 
significantly fewer support staff, thus creating long delays 
and inaccuracies. A joint effort with widespread participation 
has been started to automate business practices and information 
sharing. Senator, I might add this is a leap of faith by the 
various elements to come together to try to fix this system 
using integrated computer systems, and we are proud to be a 
part of that effort, and we are proud to be actually the 
negotiators of that effort. And there is strong will in the 
community if the funding is there to integrate the justice 
system and improve these services.
    As I have said, the task before us remains daunting, and I 
have touched only on very few issues in this short time. I wish 
to thank you for this opportunity to discuss the crime problem 
in New Orleans. Thank you.
    [The prepared statement of Mr. Stellingworth appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you, Mr. Stellingworth.
    You know, I look at this and I listen to all of you, and I 
have read your testimony. You see these grave problems with the 
justice system after Hurricane Katrina. The murder rate is 
worse than ever. Police are understaffed and working out of 
temporary facilities. Prosecutions and convictions of offenders 
is at an all-time low. The corrections system is way below its 
capacity to even handle what is going through.
    This may seem unfair, because I do not mean to exclude 
other things, but let me start with you, Mr. Stellingworth, and 
I will ask the same question of everybody else.
    What is the most important, the Number 1 most important 
issue facing New Orleans in combating violent crime? And what 
can be done? Assuming you could direct the Federal response, 
what can we do?
    Mr. Stellingworth. Senator, I have the answer to that 
question. The answer is to restore faith in the system. That is 
a very complex issue. We must restore faith in the criminal 
justice system in Orleans Parish, not only for the recovery to 
continue but for the people to stay, for the infrastructure to 
return them to normalcy. They need normalcy. We are losing 
people. They are tired of crisis, Senator. They are tired of 
being in a constant crisis mode. They want to get back to 
normal. Restoring faith in the justice system and returning the 
people and the human capital to normalcy I would say would be 
the Number 1 task.
    How you do that? It is going to have to be widespread 
reform of systems. It is going to have to be financial support. 
It is going to have to be continuing the Federal programs that 
are there and allowing those programs to take full effect.
    Chairman Leahy. You are saying these people need to get 
their lives back.
    Mr. Stellingworth. You got it. And the system needs to have 
faith restored to it.
    Chairman Leahy. Chief?
    Mr. Cannatella. Pretty well said. To me the bottom line is 
lives are just still upside down. It is nothing normal going on 
in the city of New Orleans right now. Again, I can only address 
the police response. I think the police department is tired. 
They are worn out, they are tired, they have not had a break 
since the hurricane. November 30th of this year, we are going 
to lose 300 Louisiana National Guard troops that are going 
back. We are going to lose Louisiana State Police officers that 
are being called back. And on that date, the New Orleans Police 
Department has got to stand up and patrol this entire city with 
1,200 police officers when we did it before with 1,600.
    And, again, there are vast areas that are still abandoned. 
However, they still have to be patrolled. They still have to be 
protected. And they are still being burglarized, copper pipe 
and people's belongings. So the answer is we have got to get 
our police department back up on its feet.
    I think the faith and hope that he is talking about has to 
start with the police. We are the first rung in the criminal 
justice system. If we are not functioning, you know, the 
prosecutors, the judges, the rest of it is not going to work 
either. So we have got to get--you know, we are trying to 
rebuild police headquarters to what it was. It was a 40-year-
old building. That dates me. It opened the day I started so we 
are old pals. Why do we want to rebuild a building that is 40 
years old? Why not just move it out of the way and just start 
over and just build a new building?
    You know, work environment is a big thing to everybody. No 
one wants to come to work in a dump, in a trailer. And these 
are not trailers built for what they are being used for.
    Chairman Leahy. Judge Bell?
    Judge Bell. I think each system needs to be allowed to 
determine its funding priorities. I think that, you know, we 
cannot--I think the chief here hit it on the head. You know, we 
cannot just do what we did before, and we cannot be allowed to 
use these Federal resources only on what they were used before. 
We have to be able to prioritize our resources and our 
expenditures based on crime patterns, you know, and communicate 
with one another through interagency communications and 
collaboration so that we can attack, you know, spikes in 
murder, you know, so that we can attack--or place services in 
areas that have high instances of violent crime or drug usage. 
And we do not have the flexibility to do that right now with 
the proceeds that were previously sent down. And I think that 
is a large part of this problem. When you give me a dollar and 
say, you know, you have to spend this dollar for this water, 
and I need my medicine, you know, the water is not really going 
to help me. And that is what is happening right now.
    Chairman Leahy. Mr. Letten, you have had far more 
experience as a prosecutor than most people who testify before 
us here. What would you say to that question?
    Mr. Letten. Senator, while I really agree very strongly 
with everything these men have said and I agree with the basic 
tenet, the basic premise that was enunciated by Bob 
Stellingworth, whom I respect a great deal, that faith in the 
system, the local criminal justice system, has to be restored, 
I do not want to sacrifice candor on the altar of diplomacy 
here. I have got to tell you that the local criminal justice 
system, which focuses mainly around the District Attorney's 
Office and its ability to prosecute, is only going to win the 
hearts and minds and the faith and the trust of the citizens if 
it becomes efficient and simply does a better job. And I have 
got to tell you that while there are some fine men and women 
there--and I do not criticize anyone individually--I will tell 
you that we have fought this issue for a very, very long time.
    For instance, let us talk about the judges. Until not a 
single judge any longer reduces a bond of a person charged with 
a violent felony unless and until he or she actually considers 
the facts of that case and does not do it with a phone call, 
there is going to be a problem.
    Until the District Attorney's Office is given the type of 
leadership, management leadership that actually creates, I 
think, effective organization in that office and implements the 
kind of prioritization of cases, communication with NOPD, and 
internal efficiency in screening cases and charging cases and 
preparing witnesses and treating victims and witnesses properly 
and getting them to the table and earning them the credibility 
that they deserve before the citizens and the courts and the 
juries, I do not believe we are going to advance the ball.
    I believe, if anything, that everything needs to be fixed 
because, as someone once said--and it probably was not me. I am 
sure I plagiarized this from somebody. You know, these are like 
the pieces of a clock or the movement of a clock. In the 
criminal justice system, if one of these entities--whether it 
is a clerk's office, public defender, DA, or whatever--does not 
work to full capacity, the thing slows down or stops. I 
believe, however, that probably the most glaring issues reside 
with getting the District Attorney's Office to actually 
implement the types of reforms and the types of fundamental 
promises and commitments to efficiency and communication and 
prioritization that they committed to in march at a press 
conference with the police chief and with Mr. Stellingworth. 
And until that happens, Senator, I believe we are going to have 
a real problem, and I believe that there has to be a commitment 
there to make that happen. I have not seen it yet.
    Chairman Leahy. Well, that is very similar to what you said 
in the USA Today article that you were quoted in earlier this 
month. I am trying to think of the exact date I read it. Can we 
help with Federal funds in there? And I realize leadership--you 
do not buy leadership. You create leadership. But leaving that 
just for the moment, what about an emergency COPS program? I 
mean, Judge Bell has said that, if there is Federal money, you 
have to tailor it to the facts today, not the facts of what the 
organizations were the day before Katrina. Would you agree with 
that?
    Mr. Letten. Well, I--
    Chairman Leahy. I mean, you have added--you have hired more 
prosecutors.
    Mr. Letten. Yes, sir.
    Chairman Leahy. The FBI, DEA, and ATF have sent more 
Federal agents to New Orleans.
    Mr. Letten. The Department, Senator, the Attorney General, 
has given us--has found in the mechanism of the Department the 
resources we need to, I think, exploit to our maximum advantage 
our Federal jurisdiction. I cannot honestly say that we need 
more assets than we have right now federally. But I will tell 
you, Senator--
    Chairman Leahy. I am talking about for the locals.
    Mr. Letten. For the locals, that is another animal 
entirely, and let me address it this way:
    First of all, in terms of a COPS program--and, again, the 
Department will have to speak to this--I believe the problem 
with the COPS program would be, I think, potentially that it 
takes a while to bring those individuals on board, and I think 
also if you talk to Chief Cannatella, the problem in New 
Orleans with implementing a COPS program and not another type 
of funding mechanism would, I think portend issues of trying to 
take out of an already diminished police force those officers 
with that COPS funding and put them in these certain 
assignments. And I think that logistically would be tough to 
do. So I cannot necessarily be a proponent of that.
    I will tell you that I do not believe that funding for, let 
us say, a DA's office which really, really needs to have 
assistance is alone going to make the difference. Let me give 
you an example, Senator. Bureau of Justice Assistance, God 
bless them, came to the table last year, went through our 
Southeast Louisiana Criminal Justice Recovery Task Force, BJA, 
Department of Justice sent 60 million bucks down to Louisiana, 
$30 million of which hit the Greater New Orleans area--$5 
million for the police department, $13 million for the sheriff, 
$3 million for the DA. As a result of some moving moneys around 
and continuously, I think, with BJA's assistance, redirecting 
these moneys to try and get them effectively spent, as Bob 
Stellingworth said, the DA has applied these moneys to help pay 
the salaries of seven prosecutors who are making pretty 
credible money for short periods of time, I believe 12-month or 
10-month assignments, to screen cases, remove the backlog of 
cases, and try difficult cases.
    Now, they have helped. They are good folks, and they have 
done a heck of a job. But, again, if you talk to these 
individuals, you will also learn, I believe, that despite those 
funds helping in paying these individuals, the problem--we 
still have not seen a diminution in the 701 releases. Policies 
that have been made in that DA's office which have caused the 
DA's office, up until very recently, to reject--to not charge 
individuals with bills of information who have been arrested on 
serious drug felonies until they get full lab reports and to 
reject the notion of charging these individuals with field test 
reports that we have done federally, that has been, I think, a 
very destructive policy, and I think it produced a lot of 701 
releases, and I think it still does, although they have 
committed to now reforming that.
    The Attorney General of the United States sat next to me 
when the DA at a closed-door meeting with agency heads 
committed to do that. He committed to do that in a press 
conference with Bob Stellingworth and the police chief. I do 
not know if they have done that effectively yet. They have got 
to do that.
    I think there are some arcane policies that involve the 
DA's office refusing to accept police reports for screening on 
cases that are pending release unless and until those reports 
literally contained all the information necessary in black and 
white to prosecute that person, which meant that the DA's 
office was rejecting reports and could not screen them and 
decide what additional elements they needed satisfied. I think 
that produced a horrible problem.
    Now, what I am saying to you is--
    Chairman Leahy. The chief seems to be agreeing with that.
    Mr. Letten. So we have still got 2,100 Rule 701 releases. 
What I am saying to the Senators, sir, is while funds, I think, 
have made a difference and BJA has proven that and can make 
somewhat of a difference, we are talking about hard policy 
decisions in that office that have to change. And I am not an 
elected official. I cannot make that happen. I cannot leverage 
that to happen. But I humbly believe, as a career prosecutor, 
that some of those decisions relative to organization, 
prioritization, communication, and charging policies would 
advance the ball a lot. And until that happens, none of this 
other stuff is going to work.
    Chairman Leahy. Have you seen Senator Landrieu's 10-point 
program?
    Mr. Letten. Senator Landrieu's 10-point program? Yes, I 
have.
    Chairman Leahy. I am telling her not to listen, but how do 
you feel about it?
    Mr. Letten. I think the 10-point program is certainly--
there are some fundamental--having read that program, I believe 
that there are some very, very important basic tenets in there 
that I think do advance law enforcement. I really do. And I 
will tell you, Senator Landrieu and Senator Vitter both--and I 
say this not gratuitously--understand the culture, understand 
the problems we have, and I think have identified a lot of the 
things that have to happen to help fix some of those problems. 
I am focusing on what I think is the most glaring problem right 
now.
    Chairman Leahy. Would the rest of you agree with that, that 
the 10-point program would be a help? And everybody is shaking 
their head yes.
    You know, there are certain basic things in law enforcement 
that we all understand, whether you are in California of 
Louisiana or Vermont or wherever else. But we also understand, 
those who work in law enforcement, that there are always unique 
situations to the jurisdiction, and one has to be able to 
understand the jurisdiction to do it.
    I was looking at, for example, Mr. Stellingworth, in 
preparing for this, that you and your group have been active in 
supporting the New Orleans Police Department after the storm, 
but you have been raising money privately for police body armor 
that FEMA did not replace after the storm.
    I am interested in that. We have legislation that actually 
a former Senator, Senator Ben Nighthorse Campbell, and I put 
together several years ago and that we fund every year to buy 
body armor for local police. I have been in other parts of the 
country, and a police officer will see me and sort of tap his 
or her chest where the body armor is. But why--and I am a 
little bit--this is such a basic thing today. When I was in law 
enforcement, we did not see body armor that much. Today it is 
basic. Why in heaven's name did you have to raise money for 
that? Why didn't FEMA just do that?
    Mr. Stellingworth. Senator, it would seem simple.
    Chairman Leahy. They have got 18 ``gazillion'' dollars down 
there. That is a technical term, but go ahead.
    Mr. Stellingworth. Well, initially, there is a problem with 
body armor that gets wet, by the way.
    Chairman Leahy. I understand.
    Mr. Stellingworth. And there are dates, so as a result, a 
large portion of the body armor got wet in New Orleans. So 
there was a need that was there. The city government, because 
of its funding circumstance, could not afford it. FEMA 
indicated there was a possibility they could reimburse at some 
point in the future. But you cannot ask officers to worry about 
whether FEMA is going to buy them vests in 6 months.
    Chairman Leahy. Don't get shot at for the next 8 months 
until the money comes in. That is what you are saying.
    Mr. Stellingworth. That is exactly right. So the critical 
became whether we should move forward. There were several 
significant donors in our community that came forward, and we 
have bought over $400,000 of bulletproof vests for police 
officers. It is still not enough, I might add. But there still 
is the potential for FEMA at some point to step forward. But, 
bureaucratically, you need a vest today, once it has been wet, 
once it has been determined that it is no longer functional. 
You cannot wait. And the system does not seem to be able to 
react to that, both at the State level, both at the local 
funding level, and both at the Federal level.
    Chairman Leahy. Chief, you wanted to add to that? I can see 
it. I can almost--
    Mr. Cannatella. Yes, well, let me tell you, before I was 
Chief of Operations, I was Chief of Administration and Support, 
and I dealt directly with FEMA on some of our recovery issues. 
And bulletproof vests is a sore subject. They only wanted to 
replace vests that officers had on during the hurricane that 
got wet in that water, if you will, or officers that lost their 
vests in the houses that may have left them during the 
hurricane and they lost them.
    Where our problem comes in is the vast majority of our 
vests got wet, obviously got wet, because we worked in the 
storm. They have expired. There is an expiration date on those 
vests, and FEMA will not replace vests that have expired. That 
is not their job, they said. And, of course, the city has got 
its meager funding source and its budget to figure out what we 
are going to spend our money on, and maybe at that particular 
time the vests were not expired. So the budget has the vests 
have.
    Again, to me in this society, in this country, to have to 
go ask a man that runs a chain of convenience stores to buy 
bulletproof vests for police, and even more telling, recently 
Mr. Larry Lundy, the owner of the Pizza Hut franchises, donated 
one of his buildings and renovated at his expense to move our 
7th District police station into to get them out of the FEMA 
trailers they were in.
    I am going to give you something, Senator, that I think is 
going to really upset you. We actually have police officers 
take up a collection every week to pay to have the port-a-lets 
cleaned out that they are using in their police stations 
because there are no bathrooms. Now, I did not want to go 
there.
    Chairman Leahy. OK, you make your point.
    Mr. Cannatella. But the point is, again, that is where we 
are.
    Chairman Leahy. Frankly, if this was all going on 2 months 
after the storm--
    Mr. Cannatella. Oh, no. It is still going on.
    Chairman Leahy.--it would be understandable.
    Mr. Cannatella. Yes, sir.
    Chairman Leahy. There is no excuse for this to be the 
situation today. Absolutely no excuse whatsoever.
    Senator Landrieu?
    Senator Landrieu. Thank you, and I appreciate your line of 
questioning, Mr. Chairman. I would like just to followup with a 
couple of things. I think it would be a disservice to leave 
this hearing with the idea that if we could just fix the 
District Attorney's Office in New Orleans, everything would be 
fine. And I know, Mr. Letten, that is not what you wanted to 
leave the record to reflect.
    Having said that, I understand that there are serious 
reforms that need to be made in that office, and I am not as 
familiar with the details as you are, and I appreciate you 
being at the table to try to work that out.
    But my question is this: You received, Jim, six additional 
U.S. Attorneys, you received nine additional FBI agents and 
additional Drug Enforcement agents that you have testified 
yourself have made a significant difference in your ability to 
carry out your duties and responsibilities, augmented your 
work, which, as you know, I have testified publicly many times 
has been excellent.
    Do you not agree that local police officers and local 
organizations and local courts also need additional resources 
to help them get their job done?
    Mr. Letten. Senator, I am certainly--and if I focus too 
much like a laser on one part of the criminal justice system, I 
certainly did not mean to suggest that fixing that, as you said 
aptly, would fix the entire thing. I think I used the movement 
of the watch metaphor, because they all have to be fixed.
    I can't dispute, Senator, at all the need for additional 
resources for the local--whether it is the DA's office for 
salaries or people or certainly for a police department that 
has been hemorrhaging police officers, a wonderful police 
department that has been hemorrhaging officers because of 
quality of life--
    Senator Landrieu. Or for juvenile justice?
    Mr. Letten. Or for juvenile justice, which I believe is a 
huge looming problem which needs assets
    Senator Landrieu. Or for the community groups?
    Mr. Letten. Or for the community groups. I guess my message 
was--because I think I did not want to--I wanted my message to 
be one that I felt very strongly about and also one that 
wouldn't necessarily simply overlap or underscore other valid 
points. And that is, while those resources are necessary--and I 
do not dispute and will never dispute what these fine men have 
said these people need, because they are all absolutely correct 
in terms of what they need. I will back it 100 percent. The 
issue is, though, that I think what I do not want to be lost on 
the Committee--and the public, for that matter--is that 
especially with some of the entities out there, it is just as 
important to make sure that the assets they have are used 
effectively and efficiently as how much assets they get. And so 
that is very critical.
    Senator Landrieu. OK. Let me ask you this, then: Do you 
think that Judge Bell can use his assets effectively?
    Mr. Letten. Oh, I do. I do. I look to him very strong--
    Senator Landrieu. Do you think Tony Cannatella can use his 
assets effectively?
    Mr. Letten. I have faith in these men and the organizations 
they represent.
    Senator Landrieu. Do you think Robert Stellingworth can use 
the assets effectively?
    Mr. Letten. I do.
    Senator Landrieu. OK. And while no one person has authority 
over the district attorney, who is an elected official, most 
certainly the community can bring pressure to bear on the 
reforms necessary. And part of our objective here is to get 
resources to the community groups to better enable them to 
provide good, solid information to the public so that the 
public in this democracy can make good decisions about the kind 
of justice system they want to have.
    My second question to you, Mr. Cannatella, it is 18 months 
after the greatest flood--one of the greatest floods in the 
history of the country, and I think most certainly since 1927. 
Has the Justice Department called you or the leadership of the 
police force in any kind of special meeting to ask you how they 
could help you to help your 800 officers that lost their homes, 
their children who are without schools, where they were going 
to get their health care from after they got off their 12-hour 
beat in the event that they broke a leg or injured their head, 
what kind of hospital? Have they ever had a meeting with you 
about how to help you stand up--
    Mr. Cannatella. Not on personal issues like that, no.
    Senator Landrieu. None.
    Mr. Cannatella. Crime issues only, yes.
    Senator Landrieu. OK. I want to say for the record, I think 
it is extremely disturbing that the Justice Department has not 
had one meeting with the police association or the police 
officers on the subject of the 800 out of 1,400 officers that 
you have testified today have lost their homes, many of their 
spouses lost their jobs, a health care system that has 
collapsed, and yet continue to call press conferences with 
fancy backdrops, as the Chairman said, about how much they 
support first responders.
    Am I mistaken that our police officers--I thought they were 
first responders. I thought our firefighters were first 
responders. I don't know how more basic you can get than 
providing a bulletproof vest, a salary, a hospital bed in the 
event that you get shot, a school for the children, or a roof 
over your head. If I am missing something, I wish somebody 
would tell me.
    So I want this record to reflect that while I understand 
that reform is essential--and I have spent my life, 30 years in 
officer, fighting for it--I cannot let this hearing close with 
the idea that if we would just fix a few things at home, that 
this whole problem will go away.
    And I will finally say, as Senator Leahy opened this, if we 
can spend billions of dollars in Iraq training their police 
officers, most certainly we can provide a roof over the ones 
that we have in New Orleans.
    Chairman Leahy. Gentlemen, again, I thank you for coming up 
here. We have no control over the weather. Actually, we have 
very little control over anything, but certainly over the 
weather. So I appreciate you coming here.
    I will keep the record open in case others have things to 
add. And when you look back at the transcript, if you find 
something you wish you had added, something further, or a 
number was off or something, obviously we give you a chance to 
add to that. Both Senator Landrieu and I also serve on the 
Appropriations Committee, and I suspect this hearing is going 
to be involved there, too.
    Thank you very much.
    [Whereupon, at 12:46 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 40461.001

[GRAPHIC] [TIFF OMITTED] 40461.002

[GRAPHIC] [TIFF OMITTED] 40461.003

[GRAPHIC] [TIFF OMITTED] 40461.004

[GRAPHIC] [TIFF OMITTED] 40461.005

[GRAPHIC] [TIFF OMITTED] 40461.006

[GRAPHIC] [TIFF OMITTED] 40461.007

[GRAPHIC] [TIFF OMITTED] 40461.008

[GRAPHIC] [TIFF OMITTED] 40461.009

[GRAPHIC] [TIFF OMITTED] 40461.010

[GRAPHIC] [TIFF OMITTED] 40461.011

[GRAPHIC] [TIFF OMITTED] 40461.012

[GRAPHIC] [TIFF OMITTED] 40461.013

[GRAPHIC] [TIFF OMITTED] 40461.014

[GRAPHIC] [TIFF OMITTED] 40461.015

[GRAPHIC] [TIFF OMITTED] 40461.016

[GRAPHIC] [TIFF OMITTED] 40461.017

[GRAPHIC] [TIFF OMITTED] 40461.018

[GRAPHIC] [TIFF OMITTED] 40461.019

[GRAPHIC] [TIFF OMITTED] 40461.020

[GRAPHIC] [TIFF OMITTED] 40461.021

[GRAPHIC] [TIFF OMITTED] 40461.022

[GRAPHIC] [TIFF OMITTED] 40461.023

[GRAPHIC] [TIFF OMITTED] 40461.024

[GRAPHIC] [TIFF OMITTED] 40461.025

[GRAPHIC] [TIFF OMITTED] 40461.026

[GRAPHIC] [TIFF OMITTED] 40461.027

[GRAPHIC] [TIFF OMITTED] 40461.028

[GRAPHIC] [TIFF OMITTED] 40461.029

[GRAPHIC] [TIFF OMITTED] 40461.030

[GRAPHIC] [TIFF OMITTED] 40461.031

[GRAPHIC] [TIFF OMITTED] 40461.032

[GRAPHIC] [TIFF OMITTED] 40461.033

[GRAPHIC] [TIFF OMITTED] 40461.034

[GRAPHIC] [TIFF OMITTED] 40461.035

[GRAPHIC] [TIFF OMITTED] 40461.036

[GRAPHIC] [TIFF OMITTED] 40461.037

[GRAPHIC] [TIFF OMITTED] 40461.038

[GRAPHIC] [TIFF OMITTED] 40461.039

[GRAPHIC] [TIFF OMITTED] 40461.040

[GRAPHIC] [TIFF OMITTED] 40461.041

[GRAPHIC] [TIFF OMITTED] 40461.042

[GRAPHIC] [TIFF OMITTED] 40461.043

[GRAPHIC] [TIFF OMITTED] 40461.044

[GRAPHIC] [TIFF OMITTED] 40461.045

[GRAPHIC] [TIFF OMITTED] 40461.046

[GRAPHIC] [TIFF OMITTED] 40461.047

[GRAPHIC] [TIFF OMITTED] 40461.048

[GRAPHIC] [TIFF OMITTED] 40461.049

[GRAPHIC] [TIFF OMITTED] 40461.050

[GRAPHIC] [TIFF OMITTED] 40461.051

[GRAPHIC] [TIFF OMITTED] 40461.052

[GRAPHIC] [TIFF OMITTED] 40461.053

[GRAPHIC] [TIFF OMITTED] 40461.054

[GRAPHIC] [TIFF OMITTED] 40461.055

[GRAPHIC] [TIFF OMITTED] 40461.056

[GRAPHIC] [TIFF OMITTED] 40461.057

[GRAPHIC] [TIFF OMITTED] 40461.058

[GRAPHIC] [TIFF OMITTED] 40461.059

[GRAPHIC] [TIFF OMITTED] 40461.060

[GRAPHIC] [TIFF OMITTED] 40461.061

[GRAPHIC] [TIFF OMITTED] 40461.062

[GRAPHIC] [TIFF OMITTED] 40461.063

[GRAPHIC] [TIFF OMITTED] 40461.064

[GRAPHIC] [TIFF OMITTED] 40461.065

[GRAPHIC] [TIFF OMITTED] 40461.066

[GRAPHIC] [TIFF OMITTED] 40461.067

[GRAPHIC] [TIFF OMITTED] 40461.068

[GRAPHIC] [TIFF OMITTED] 40461.069

[GRAPHIC] [TIFF OMITTED] 40461.070

[GRAPHIC] [TIFF OMITTED] 40461.071

[GRAPHIC] [TIFF OMITTED] 40461.072

[GRAPHIC] [TIFF OMITTED] 40461.073

[GRAPHIC] [TIFF OMITTED] 40461.074

[GRAPHIC] [TIFF OMITTED] 40461.075

[GRAPHIC] [TIFF OMITTED] 40461.076

                                 <all>

</pre></body></html>
